APPENDIX

Ines Colleen Robinson v. State of Florida
APPENDIX

INDEX TO APPENDIX

A. PGA dated December 8, 2020, from Fifth District Court of Appeal, State of
Florida, 5D18-3978

B. Order denying rehearing en banc dated January 12,2021, Fifth District Court
of Appeal, State of Florida, 5D18-3978
C. Judge's No Plea Agreement Policy Memorandum
D. Newspaper Interview with Judge Maltz

••••

)

•

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT

NOT FINAL UNTIL TIME EXPIRES TO
FILE MOTION FOR REHEARING AND
DISPOSITION THEREOF IF FILED

INES COLLEEN ROBINSON,

Appellant,
Case No. 5D18-3978

V.

STATE OF FLORIDA,

Appellee.

Decision filed December 8,2020

Appeal from the Circuit Court
for St. Johns County,
Howard M. Maltz, Judge.
William Mallory Kent, of Kent & McFarland,
Jacksonville, for Appellant.

Ashley Moody, Attomey General,
Tallahassee, and Bonnie Jean Parrish,

Assistant Attomey General, Daytona
Beach, for Appellee.

PER CURIAM.

AFFIRMED.

COHEN, LAMBERT and HARRIS, JJ., concur.

IN THE DISTRICT COURT OF APPEAL OF THE STATE OF FLORIDA
FIFTH DISTRICT

INES COLLEEN ROBINSON.

Appellant,
CASE NO. 5D18-3978

STATE OF FLORIDA,

Appellee.

DATE: January 12, 2021
BY ORDER OF THE COURT:

ORDERED that Appellant's Motion for Reheating En Banc, filed December 23,
2020, is denied.

/ hereby certify that the foregoing is
(a true copy of) the original Court order.

^gjoj 'i\&'

SANDRA B. WILLIAMS. CLERK

Panel: En Banc Court

Bonnie Jean Parrish

Office of the Attorney

William Mallory Kent

General

Ryan Edward McFarland

m

^ 'gg

STATE OF FLORTOA
CIRCUIT COURT SEVENTH JUDICIAL CIRCUIT
RICHARD O. WATSON JUDICIAL CENTER

4010 Lewis Speedway, Room 344
St. Augustine, Florida 32084

hjt Maltz
HowardM

Susan Miller, Judicial Asst.

Circuit Judge

fax: (904) 827-5602

^^j-sdoo

MEMORANDUM

Date:

November 17,2017

To:

Office of the State Attorney
Office of the Public Defender

From:

Howard M. Maltz, Circuit Judgp A

RE:

Plea Bargains on Sale, Manufacture, Delivery and Trafficking
in Opiate Cases

Due to the heroin and opioid crisis plaguing this community, this Court will,
as a general rule, no longer accept plea bargains in cases in which a Defendant is

charged with the sale, manufacture, delivery orti'afficking inheroin or opioids.' The
President of the United States and Florida's Governor Scott have recently declared

the opioid epidemic constitutes a publichealth emergency.^ The Florida Legislature
is addressing multiple proposals to deal with the opioid crisis, including but not
limited to limits of opioid prescriptions.

While the executive and legislative

branches of our government have taken significant steps to address this crisis, it is
' I recognizethat heroin is a form ofopioid. Heroin and opioids will at times herein be referred to
separately.
^ State of Florida, Olfice ofthe Governor, Executive Order 17-146, May 3,2017;
www.iisatodav.com/storv/news/politics/2017/10/26:www.usnews.com/news/beststates/florida/articles/2017-10-10/florida-legislature-looks-at-combatting-opioid-epidemic

44ofl28

imperative the judicial branch also take certain steps to assure public confidence in
addressing this crisis.
A. Background

The heroin and opioid crisis is a cancer that has grown and metastasized in

the body politic of the United States.^ Florida has not been spared this epidemic.
Heroin and opioids are different fi-om other addictive substances. The principal

difference lies in the fact that recreational use is too often deadly. The questionable
level of potency in each dose of heroin too often causes overdose.'* All too often
news stories emerge of "bad batches" that cause a deluge of fatal overdoses.®
Furthermore, users develop a tolerance overtime and, as a result, seek out the highest

potency possible without regard to the related risk ofdeath. The Centers for Disease
Control and Prevention ("CDC") found that between 2012 and 2014, heroin caused

the most overdose deaths of any drug.® The number of heroin overdose deaths
continues to rise at an alarming rate.
Heroin use has increased across the United States in all genders, in most age

groups, and in all income levels.' "Some of the greatest increases [have] occurred
in demographic groups with historically low rates of heroin use: women, the

privately insured, and people with higher incomes."^ It is estimated that 580 people
initiate heroin use each day.' This rapid increase in heroin use has had deadly
' See U.S. V. Walker, Case No.: 2:17-CR-0010 (S.P.W.V. 2017). Much of the information containedherein Is taken

from U.S. District Judge Joseph Goodwin's June26,2017 orderrejecting a pleaagreement in a sale of heroin case.
'' Audrey Redford, StillSearching/orTzutzu Flower: Cautions Against Extending theFederalAnalogue Act of1986,
27 U. Fia. J.L. & Pub. Policy, 111, 119(2016) (some heroin overdosesoccur because of varying presence of fbntanyl
renders users unaware of the drug's true potency).
^ See e.g., Pat Beall, TenOverdoses in One Day: Is There a Bad BatchofHeroin on the Street, Palm BeachPost,
www.Dalmbeachpost.com/news/local/ten-overdoses-on-one-dav (March 17,2017); Jeremy Gomer, 74 Overdoses in

72 Hours: Laced Heroin to Blame, Chi. Trib. (Oct. 2,20151 www.chicaeotribune.com/new.s/localT)reaking/ct-heroinoverdose.met.20151002-storv.

®Margaret Warner, et al.DrugsMost Frequently Involved in DrugOverdoses Deaths: UnitedStates, 2010-2014, 65
Nat'l Vital Stats. Reps. No. 10 (Dec. 20,2016).

''Today's Heroin Epidemic, Ctrs. ForDisease Control &Prevention, https://www.cdc.gov/vitalsigns/heroin/index.html
Oast updated July 7,2015).
"Id.

' U.S. Dep't of Health and Human Servs., The Opioid Epidemic: By the Numbers 1 (2016),
httns://www.hhs.gov/sites/default/files/Factsheet-opiods-061516.pdf

45 of]28

consequences. Between 2002 and 2013, the rate of heroin related overdose deaths

per 100,000 people increased 286%.'° The number of drug overdoses involving
heroin tripled jSrom 2010 to 2014." In 2015, heroin caused 12,989 deaths
nationwide.'^

In addition to heroin, there is a surge in the presence of fentanyl and other

powerfiil synthetic opioids.'^ The DBA estimates that "[a]bout two milligrams of
fentanyl - about what comes out with a single jiggle ofa salt shaker - is considered
lethal.''* Fentanyl andsynthetic opioids are particularly dangerous because they can
be - and often are - mixed with other drugs without the consumer's knowledge.'^
The national overdosedeath rate from synthetic opioids increased 72.2% from 2014

'®SwDranote7.

.

. „ „

.

"Z)rHg Overdose Deaths Hit Record Numbers in 2014, Ctrs. for Disease Control & Prevention,
https://www.cdc.gov/media/releases/201S/n1218-dru-overdose.html (last updated Dec. 18,2015).
^Understanding
the
Epidemic,
Ctrs.
For
Disease
Control
&
Prevention,

https://www.cHr f>nv/Hnu»overdose/cD[demic/index.htinl (select "Heroin Use" tab) Oast updated Dec. 16,2016).
" Fentanyl is an extremely powerfiil synthetic opioid. Itwas originally introduced as an intravenous anesthetic in the
1960s. U.S. Dep't of Justice & Drug EnFt Admin. Diversion Control Div., Fentanyl (2016),
http://www.deadiversion.usdoi.gov/drug chein info/fentanvl.pdf. Today, those with otherwise untreatable pain, such
as terminal cancer patients, use fentanyl for pain management. Id.', see also David Armstrong, "Truly Terrifying":
Chinese Suppliers Flood US and Canada with Deadly Fentanyl, STAT News (Apr. 5, 2016),

httDs://www.statnews.com/2016/04/05/fentanvl-traced-to-china/. For opioid dependent individuals, fentanyl can

serve asasubstitute for heroin. U.S. Dep't ofJustice &Drug Enft Admin. Diversion Control Div., supra. However,

because itis much more potent than heroin, fentanyl is a very dangerous replacement. Id. Fentanyl's use results in

fi'equent overdoses, which can cause respiratory depression and death. Id. Additionally, because fentanyl can be
absorbed through the skin in some forms, fentanyl can be deadly iftouched. 18 Swat Officers Hospitalized After
Possible Exposure to Fentanyl During Raid; www.cbsnews.com/news/swat-ofricers-hospitalized-possible-exposure-

fentanvl-raidfAug. 9.2017).

DBA Issues Carfentanil Warning to Police and Public, U.S. Drug Enforcement Admm. (Sept. 22, 2016),

hHps-//www.dea.eov/divisions/ha/2016/ha0922l6.shtml (noting that fentanyl can "be lethal at the 2-miillgram range,
depending on route of administration and other factors" and that "[t]he dosage of fentanyl is a microgram, one

millionth ofagram - similar tojust afew granules oftable salt").

" Supranote 14 C'Fentanyl, asynthetic opiate painkiller, is being mixed with heroin to increase its potency, butdealers
and buyers may not know exactly what they are selling or ingesting. Many users underestimate the potency of
fentanyl.").

...

-

.

i.- l

Drug dealers may sell fentanyl pills disguised as other painkillers because prescription drugs fetch ahigher pnce

onthe street, even though they are less potent than fentanyl. Armstrong, supra note 13.

Nine people died in Florida fi-om taking counterfeit Xanax pills contaiimg fentanyl. David Armstrong, Dope Sick,

STAT News (Aug. 2,2106), https://www.statnews.com/feature/opioid-crisis/dope-sick/.
46 of 128

to 2015.'^ Illegally made fentanyl is likely the driving force of this increase.
Florida saw a 69.3% increase in the presence of fentanyl in decedents and a 74.3%

increase in the presence of heroin in decedents from 2014 to 2015.'® The recently
released 2016 statistics are even more staggering. Florida saw a 35% increase in

opioid deaths from 2015, occurrences of fentanyl increased by 80% and deaths

caused by fentanyl skyrocketed by 97%."
The heroin and opioid epidemic is one of the greatest public health problems
of our time. The CDC found that opioids, primarily prescriptions pain relievers and

heroin, arethe chiefdrugs associated with overdose deaths.^" In 2015, opioids were
involved in 33,091 U.S. deaths,^' which is more than 63% of all U.S. drug overdose

deaths.^^ On average, ninety-one Americans die from opioid overdose every day.^^
In a November 2016 report, the DBA referred to opioid prescription drugs,

heroin, and fentanyl as the most significant drug-related threats to the United

States.^'' Opioid overdoses have quadrupled nationally since 1999.^' According to

^^^nthetlc

Opioid

Data,

Ctrs.

for

Disease

Control

&

Prevention,

httPs:/Avww.cdc.BOv/dnigoverdose/flata/fentanvl.html (select"Synthetic Opioids Data" tab) (Lastupdated Dec. 16,

2016); see also Rose A. Rudd etal. Increases in Drug and Opioid-Involved Overdose Deaths - UnitedStates. 20102015, 65 Morbidity &Morality Wkly. Rep. 1445,1446 (2016).

"R.Matthew Gladden, Fentanyl Lmv EnforcementSubmissions andIncreases in Synthetic Opioid-InvolvedOverdose
Deaths-27 States,, 2013-2014, 65 Morbidity &Morality Wkly Rep. 837, 840 (2016) ("Given the strong correlation
between increases in fentanyl submissions (primarily driven by[illegally manufactured fentanyl]) ... and increMM

in synthetic opioid . . . deaths (primarily fentanyl deaths), and uncorrelated stable fentanyl prescription rates, it is
hypothesized that [illegally manufectured fentanyl] is driving the increases in fentanyl deaths. Findings from DBA
state, and CDC investigations documenting the role of[illegally manufactured fentanyl] in the observed increases in
fentanyl deaths further support this hypothesis."). The rate atwhich physicians prescribe fentanyl, however, has not
increased. Rudd, etal.

Drugs Identified in DeceasedPersons by Florida Medical Examiners, 2015 Report ofFlorida Medical Bxammers
Commission.

" Drwgs Identified in DeceasedPersons by Florida Medical Examiners, 2016 Report ofFlorida Medical Bxammers
Commission.
note 16

^^Drug

Overdose

Death

Data,

Ctrs.

for

Disease

https://cdc.gov/druBoverdose/data/statedeaths.html (last updated Dec. 16,2016).
^ Supra mts 16
^ Understanding the Epidemic, supra noXe 12
^ Supra note 16

Control

&

PrevenUon,

This statistic includes alloverdoses, notonly those thatresulted indeath. Drug Overdose Death Data, supra note
20.

47 of 128

the CDC, the significant increase in overdose death rates is attributable to synthetic

opioids such as heroin with fentanyl.^^
These drugs are far more dangerous and far more available for abuse. St.

Johns County has likewise seen these increases over the past few years, including
increased overdose deaths caused by heroin and fentanyl.
B. Plea Bargaining

Plea bargaining occurs when a prosecutor, defense counsel and a defendant

agree to acertain sentence in acriminal case. Ifthe judge concurs in the agreed upon
sentence, the defendant receives that sentence without the need for a lengthy and

costly juiy trial or sentencing hearing. Plea bargains are a necessary part of the
American criminal justice system. Plea bargains are cost effective, efficient and
result in a reduction in the burden on the court system." Without plea bargaining,

the criminal justice system would come to a screeching halt due to the number of

jury trials that would have to take place with an insufficient number oftrial judges,
prosecutors and court-appointed defense counsel.
St. Johns County had approximately 2000 felony cases last year. That number

is only expected to increase with our rapidly increasing population. Without plea
bargaining asignificant increase in the limited resources ofthe judicial branch would
be needed. Plea bargaining typically takes place behind closed doors between

prosecutors and defense counsel addressing issues in acase outside ofthe public's
view. The public never sees or hears what went into the decision, but merely sees
the end result. However, there comes atime when efficiency must take abackseat to

transparency and the public's need to observe the entire process. Such is the case
when our society is facing the current opioid crisis. Because this issue is such a

problem in our society today, the public must have the confidence that the criminal
See e.g., William Stuntz, Plea Bargaining and Criminal Law's Disappearing Shadow, 117 Harv. L. Rev. 2548
(2004).
48ofl28

justice system is doing its part to address this problem. Public confidence can be
achieved by sentences decided by evidence presented and arguments made in the
fully transparent setting of a public courtroom.
It is forthisreason thatI will generally no longer accept pleabargains in cases

in which a Defendant is charged with sale, manufacture, delivery, or trafficking in

heroin or opioids. Defendants facing such charges may open plea to the court or

proceed to trial. Upon an open plea or conviction following trial, the Court will
consider all legally permissible aggravating and mitigating circumstances and
impose the sentence it deems appropriate. The Court acknowledges there may be
situations in which anegotiated plea bargain may be appropriate, for example where
a Defendant has provided substantial assistance to law enforcement, in which case

safety ofthose involved may dictate anegotiated disposition. The Court will address
those situations on a case-by-case basis. The Court will continue to entertain

negotiated plea agreements for those defendants charged only with possession of
heroin or opioids.

49 of 128

As opioid crisis continues, local judge saysno more pleaagreements for dealers - News -... Page I of 3

W

THr ST. AU(ii:STINE RECORD

Astauaustine

.com

covaaiKTHZANCieNTi:TTrAmsT.joHss<x)wrfsoKXi»94

As opioid crisis continues, local judge says no more plea
agreements for dealers
By JaredKeever
Posted Nov 20,2017 at 12:01 AM

With the nation, state and county reeling from the ongoing opioid epidemic, a local circuit

judgesays he will no longeraccept plea deals in cases against people accused of selling the
powerful drugs that include heroin and fentanyl.

"I justkeep hearing the stories from the detectives about overdose deaths." CircuitJudge
Howard Maltz said Wednesday morning seated behind the desk in his chambers.

"It's become such a pervasive problem," he added, pointing out that the stories, deaths and
near-misses come from all over the county and cross socio-economiclines.
Maltz rattled off a few statistics — some of which are included in a memo from him about the

decision, released Friday evening —about the number of deaths throughout the state caused by
the powerful drugs.

ForSt. Johns County, the Sheriffs Office has said there were 47 overdose deaths here in 2016,
and by May of this year, there had already been 18.

In Florida in 2015, opioids —including prescription painkillers, heroin and fentanyl —were
determined to be responsible for 3,896 deaths, according to data from the state Medical
Examiners Commission.

National numbers for 2015, which were provided by the Sheriffs Office when they announced

that deputies would begin carrying adrug, known as Narcan, that can reverse the effects ofan
overdose, showed that more than 20,000 people died in prescription opioid-overdose-related
deaths. In the same year, nearly 13,000 people died of heroin overdose.
"One is too many," Maltz said Wednesday.

http:AlT!&lv!^ugustine.com/news/local-news/2017-] 1-20/opioid-crisis-continues-local-jud... 4/26/2018

As opioid crisis continues, local judge says no more plea agreements for dealers - News -... Page 2 of 3

"And that's just deaths," he added, noting that many arenowsaved bythedeputies andcounty
Fire Rescue personnel who all carry Narcan these days.
And with Florida Gov. RickScott, and even President Donald Trump, having declared the
epidemic a health emergency, as well as the state Legislature set to consider new laws to help
with the problem, Maltz said it was time for him to do something as well.

"While the executive and legislative branches of our government have taken significantsteps
to address this crisis," his memo says,"it is imperative the judicial branch also take certain steps
to assure public confidence in addressing this crisis."

Maltz said plea deals are an important part of the criminal justice systemas they help many

cases clear busy courtrooms, but because theyoften get made behind closed doors between the
assistant stateattorneys, defense teams anddefendants, very little isever learned about the
circumstances of the alleged crimes.

"Inthe overwhelming majority, the judge goes along with it because he or shedoesn't know
much about the case," he said.

Refusing to accept a deal in the sale or manufacturing cases will force defendants eitherto go
to trial or to enteran open plea to the court. Ifthey opt for a trial, guilt or innocence will be
decided bya jury. Ifthey plead guilty in front of Maltz, each side will have the opportunity to
argue mitigating and aggravating factors before he imposes sentence.
That shines a bit of lighton the process, he explained.

T think it isimportant there befull transparency ofwhathappens in these cases," he said.
"Because this issue is such a problem in our society today," the memo says, "thepublic must
have theconfidence thatthe criminal justice system isdoing its partto address this problem."
His new rule, he said, will apply to anycase involving the sale, delivery, manufacturing or

trafficking ofany opioid butthere will beroom for some exceptions, including for those who
are cooperating with authorities as informants.

It also won't apply to the addicts who find themselves caught up in the epidemic.

"This isn'tthe users that I amaddressing, this isthe people that are dealing the stuffthat I am

http:^wwv!i^ugustine.com/news/local-news/2017-11-20/opioid-crisis-continues-local-jud... 4/26/2018

As opioid crisis continues, iocaijudge says no more plea agreements for dealers - News -... Page 3 of3

addressing,"Maltz said.
For those who find themselves arrested and charged with crimes associated with their

addiction, particularlynon-violent crimes, Maltz said he is usually willingto acceptan
arrangement that allows the defendant to get help either in a rehabilitation facility or havethe
casetransferred to drug court, where individuals can avoid harsh penaltiesby participating in
the program that requires that theyseek help and complete other requirements like
community service.

"Ifit'sa simple possession we will try to get them help," Maltz said.

http:/^wwlstlugustine.com/news/local-news/2017-11-20/opioid-crisis-continues-local-jud... 4/26/2018

